JUDGMENT

Court ot appeal*
Jftrsft JBtsrtrtct of fEexa*
NO. 01-18-00540-CR
ROY EUGENE USSERY, Appellant
V.
THE STATE OF TEXAS. Appellee
Appeal from the 338th District Court of Harris County. (Tr. Ct. No. 1459846).
This case is an appeal from the final judgment signed by the trial court on June 15,
2018. After submitting the case on the appellate record and the arguments properly raised
by the parties, the Court holds that the trial court’s judgment contains no reversible error.
Accordingly, the Court affirms the trial court’s judgment.
The Court orders that this decision be certified below for observance.
Judgment rendered November 26, 2019.
Panel consists of Justices Kelly, Hightower, and Countiss. Opinion delivered by Justice
Hightower.

Opinion issued November 26, 2019

In The

Court ot Appeals!
For The

Jftrot JBtotrtct of %txao
NO. 01-18-00540-CR

ROY EUGENE USSERY, Appellant
V.
THE STATE OF TEXAS, Appellee

On Appeal from the 338th District Court
Harris County, Texas
Trial Court Case No. 1459846

OPINION
A jury convicted appellant Roy Eugene Ussery of aggravated sexual assault
of a child and assessed his punishment at thirty-five years’ confinement. In his sole
issue on appeal, Ussery contends that he was denied a right to a speedy trial and

the trial court erred in denying his motion to dismiss the indictment based on that
alleged violation. We affirm.
Background
The State filed charges against Ussery on March 2, 2015, alleging that he
had committed aggravated sexual assault of a child younger than six years old in
2008, and he was arrested on that charge in March 2015. After the case was reset
multiple times, due to the trial court’s sua sponte decision to reset in some
instances and based in part on the effects of Hurricane Harvey, the case had still
not gone to trial by early 2018. Accordingly, Ussery’s attorney moved for
dismissal of the case against Ussery for denial of a speedy trial.
The case proceeded to trial in June 2018. Immediately before trial, the trial
court held a hearing on the motion to dismiss and, following the hearing, denied
Ussery’s motion to dismiss. In its findings of fact and conclusions of law, the trial
court determined that the length of the delay—three and a half years—was
excessive and weighed in favor of Ussery. The trial court further found that the
State did not intentionally delay to gain an advantage, observing that the case was
reset by the trial court judge who had been elected and sworn in in January 2017
because the new judge was not prepared to try certain kinds of cases. And the trial
court found that Ussery had asserted his right to a speedy trial pro se. The trial
court weighed these two factors in favor of Ussery as well. The trial court found,
2

however, that Ussery was not prejudiced by the delay, and the trial court weighed
this factor heavily in favor of the State to support the denial of Ussery’s motion to
dismiss on speedy-trial grounds.
A jury subsequently convicted Ussery of the felony offense of aggravated
sexual assault of a child younger than six years old, and it assessed his punishment
at thirty-five years’ confinement.
Right to Speedy Trial
Ussery now appeals, asserting as his sole issue that the trial court erred in
denying his motion to dismiss on speedy-trial grounds.
A.

Law Governing Right to Speedy Trial
The Sixth Amendment to the United States Constitution guarantees an

accused the right to a speedy trial. U.S. Const, amend. VI; Barker v. Wingo, 407
U.S. 514, 515 (1972); Cantu v. State, 253 S.W.3d 273, 280 (Tex. Crim. App.
2008); see also Gonzales v. State, 435 S.W.3d 801, 808 (Tex. Crim. App. 2014)
(right to speedy trial made applicable to states by Due Process Clause of
Fourteenth Amendment). The Texas Constitution likewise guarantees the accused
in all criminal prosecutions the right to a speedy and public trial. Tex. Const, art.
1, § 10; Cantu, 253 S.W.3d at 280 n.16 (noting that right to speedy trial under
Texas Constitution “exists independently of the federal guarantee, but this Court
analyzes claim of a denial of the state speedy-trial right under the same four”

3

factors set out in Barker v. Wingo). “A speedy trial protects three interests of the
defendant: freedom from oppressive pretrial incarceration, mitigation of the
anxiety and concern accompanying public accusation, and avoidance of
impairment to the accused’s defense.” Cantu, 253 S.W.3d at 280.
The right to a speedy trial cannot be quantified in days or months. Barker,
407 U.S. at 523. Thus, Texas courts “analyze federal constitutional speedy-trial
claims ‘on an ad hoc basis’ by weighing and then balancing the Barker v. Wingo
factors: 1) length of the delay, 2) reason for the delay, 3) assertion of the right, and
4) prejudice to the accused.” Cantu, 253 S.W.3d at 280; see Gonzales, 435 S.W.3d
at 808.
“[Bjefore a court engages in an analysis of each Barker factor, the accused
must first make a threshold showing that the interval between accusation and trial
has crossed the threshold dividing ordinary from presumptively prejudicial delay.”
Gonzales, 435 S.W.3d at 808 (internal quotation marks omitted); Cantu, 253
S.W.3d at 281. “There is no set time element that triggers the analysis,” but the
Court of Criminal Appeals has held that “a delay of four months is not sufficient
while a seventeen-month delay is.” Cantu, 253 S.W.3d at 281; see also Gonzales,
435 S.W.3d at 808 (“This Court has reiterated that ‘presumptive prejudice’ ‘simply
marks the point at which courts deem the delay unreasonable enough to trigger
[further] enquiry.’”).
4

“Once the Barker test is triggered, courts must analyze the speedy-trial claim
by first weighing the strength of each of the Barker factors and then balancing their
relative weights in light of ‘the conduct of both the prosecution and the
defendant.’” Cantu, 253 S.W.3d at 281.

The Court of Criminal Appeals has

further instructed:
No one factor is “either a necessary or sufficient condition to the
finding of a deprivation of the right of speedy trial.” Instead, the four
factors are related and must be considered together along with any
other relevant circumstances. As no factor possesses “talismanic
qualities,” courts must engage “in a difficult and sensitive balancing
process” in each individual case.
Id.
If we determine that the accused’s right to speedy trial was actually violated,
we must dismiss the charging instrument with prejudice. Id. “Because dismissal of
the charges is a radical remedy, a wooden application of the Barker factors would
infringe upon ‘the societal interest in trying people accused of crime, rather than
granting them immunization because of legal error.’” Id. Thus, we must apply the
balancing test “with common sense and sensitivity to ensure that charges are
dismissed only when the evidence shows that a defendant’s actual and asserted
interest in a speedy trial has been infringed.” Id. “The constitutional right is that of
a speedy trial, not dismissal of the charges.” Id.

5

B.

Standard of Review
“In reviewing the trial court’s ruling on appellant’s federal constitutional

speedy trial claim, we apply a bifurcated standard of review: an abuse of discretion
standard for the factual components, and a de novo standard for the legal
components.” Id. at 282 (quoting Zamorano v. State, 84 S.W.3d 643 (Tex. Crim.
App. 2002)). Review of the individual Barker factors involves both fact
determinations and legal conclusions, but “[t]he balancing test as a whole ... is a
purely legal question.” Id. (quoting Zamorano, 84 S.W.3d at 648 n.19).
“While the State has the burden of justifying the length of delay, the
defendant has the burden of proving the assertion of the right and showing
prejudice.” Cantu, 253 S.W.3d at 280; see also Ex parte McKenzie, 491 S.W.2d
122, 123 (Tex. Crim. App. 1973) (stating that “if an accused made a prima facie
showing of prejudice, the State ‘must carry the obligation of proving that the
accused suffered no serious prejudice beyond that which ensued from the ordinary
and inevitable delay’”). The accused’s burden of proof in showing that he asserted
the right and in showing prejudice “‘varies inversely’ with the State’s degree of
culpability for the delay,” and, thus, “the greater the State’s bad faith or official
negligence and the longer its actions delay a trial, the less a defendant must show
actual prejudice or prove diligence in asserting his right to a speedy trial.” Cantu,

6

253 S.W.3d at 280-81 (quoting Robinson v. Whitley, 2 F.3d 562, 570 (5th Cir.
1993) (citing Doggett v. United States, 505 U.S. 647, 657 (1992)).
C.

Barker Factors
We begin our analysis by examining each of the factors in turn, and then we

must balance all of the factors together to determine whether Ussery’s right to a
speedy trial was violated in this instance.
l.

presumptive prejudice and length ofdelay

“[I]f the defendant can make a threshold showing of presumptive prejudice,
a court must then proceed to consider each of the remaining Barker factors and
weigh them.” Gonzales, 435 S.W.3d at 808. The length of the delay is measured
from the time the accused is arrested or formally accused. Id. at 809 (citing United
States v. Marion, 404 U.S. 307, 313 (1971)). A delay approaching one year from
formal accusation or arrest until trial has been found to be excessive, triggering the
Barker inquiry. See Cantu, 253 S.W.3d at 281; Shaw v. State, 117 S.W.3d 883,
888-89 (Tex. Crim. App. 2003); Celestine v. State, 356 S.W.3d 502, 507 (Tex.
App.—Houston [14th Dist.] 2009, no pet.).
The trial court found that the delay here was approximately three and a half
years in length between Ussery’s arrest and trial, that Ussery was imprisoned for

7

three years and three months of that time,1 and that this was presumptively
unreasonable. The State argues, however, that the trial court did not properly apply
the law to the facts in the record. The State asserts that Ussery sought or agreed to
resets from March 2015 through April 2018, and that agreeing to reset the case is
inconsistent with any assertion of the right to a speedy trial. See Lopez v. State, 478
S.W.3d 936, 942-43 (Tex. App.—Houston [14th Dist.] 2015, pet. refd) (holding
that agreement to various resets is inconsistent with invocation of speedy-trial
right). The record does not support the State’s argument.
The record contains multiple reset forms that were signed by Ussery’s
counsel and, on some occasions, by Ussery himself, but the forms do not indicate
that Ussery requested or agreed to the resets during the time period identified by
the State. Only one reset in 2015 was noted as having been done at Ussery’s
request. At least two of the reset forms contain a handwritten statement that Ussery
wished to assert his right to a speedy trial and that he did not agree to any further
resets unless they were trial settings.2 Ussery’s counsel further testified at the

Ussery was released on bond on two different occasions, but both times he
violated the terms of his bond and was returned to jail.
The May 2016 reset form contained a handwritten statement that Ussery “demands
a speedy trial—will not sign any reset except a setting for jury trial.” This form
was signed by the court coordinator. In June 2016, Ussery again signed the reset
form. Around this same time, Ussery filed a pro se application for writ of habeas
corpus complaining about being held without bond. In July 2016, a reset form
again reflected that Ussery “requests a speedy trial.” —■
8

hearing on the motion to dismiss that, from the time he was appointed in August
2015 until the time of trial in June 2018, he never requested a continuance. He
acknowledged that when the case was reset, he would sign the form, stating, “1 was
told the case was being reset and I signed. What else could have happened? That is
just not the way it works.”
At the speedy-trial hearing, the State relied on docket notations indicating
that the resets were “agreed.” The trial court discredited this evidence and instead
found that “[a]ll the reset forms say agreed, whether they are or not,” noting that
some of the reset forms said “agreed” even though the forms themselves contained
a statement that Ussery was demanding a speedy trial. Therefore, the record does
not support the State’s contention that multiple resets were agreed to by Ussery
inconsistent with his assertion of his right to a speedy trial.
The record supports the trial court’s finding that there was a delay of three
and a half years between Ussery’s arrest and his trial. This exceeds the “delay
approaching one year” that courts have found excessive enough to trigger the
Barker inquiry. See Cantu, 253 S.W.3d at 281 (observing that court had found
delay of seventeen months was presumptively prejudicial and triggered further
evaluation of Barker factors); Shaw, 117 S.W.3d at 888-89; Celestine, 356 S.W.3d
at 507. The trial court correctly concluded that this factor weighs in favor of
Ussery. See Zamorano, 84 S.W.3d at 649 (“Because the length of the delay
9

stretched well beyond the bare minimum needed to trigger judicial examination of
the claim, this factor—in and of itself—weights heavily against the State.”).
2.

reason for delay

The burden of justifying the delay falls on the State. Cantu, 253 S.W.3d at
280. The particular reasons for the delay will determine how heavily this factor
should weigh against the State. Zamorano, 84 S.W.3d at 649; State v. Wei, 447
S.W.3d 549, 554 (Tex. App.—Houston [14th Dist.] 2014, pet. refd). While
intentional or deliberate prosecutorial delay will weigh heavily against the State,
neutral reasons, such as negligence or overcrowded courts, weigh less heavily.
Zamorano, 84 S.W.3d at 649-50 (citing Barker, 407 U.S. at 531). “A valid delay
should not weigh against the State at all.” Wei, 447 S.W.3d at 554 (citing State v.
Munoz, 991 S.W.2d 818, 822 (Tex. Crim. App. 1999)).
The trial court found that the State did not intentionally delay to gain an
advantage, and the record supports this finding. The trial court further found that
“no evidence [was] offered [as to] why the case could not be tried before 2016.”
The State did not provide any testimony regarding why the case was not tried
between the time of Ussery’s arrest in March 2015 and the first trial setting in late
2016. Both parties, however, asked the trial court to take judicial notice of the case
file, which indicates that, although the case did not go to trial, other actions were
taken. Ussery was released on bond shortly after his arrest in March 2015, and he
10

requested at least one continuance during this period. He subsequently violated the
terms of his bond and was arrested again on an unrelated forgery charge, which led
to his original trial counsel moving to withdraw.3 The trial court appointed new
counsel for Ussery in August 2015, and that counsel moved to have Ussery
released on bond, filing a motion to that effect on October 27, 2015. Ussery was
released on bond again in December 2015, but shortly thereafter violated the terms
of the bond again and was rearrested. Also, it appears that the State made at least
one plea offer to Ussery.
Regarding the period between late 2016 and the trial in June 2018, the trial
court credited the testimony of the prosecutor assigned to the case, Allen Otto. Otto
testified that none of the delay was attributable to the State and testified that for a
period of a year and a half, from January 2017 through June 2018, the case was
reset by the trial court. Otto testified that the case was set for a jury trial in January
2017, but there had been a change in the presiding judge for the court. Otto
indicated that the new presiding judge wanted more time to prepare for difficult
cases such as Ussery’s, stating, “She was trying cases, she just wanted to make
sure that she was legally and sufficiently prepared for worse cases.” Otto also
testified that Hurricane Harvey struck the Houston area in late August 2017, which

Ussery’s original counsel moved to withdraw in July 2015, asserting that
“defendant has lost contact with defense attorney, has not met financial obligations
and has been arrested on a new law violation.”
11

caused delays in many cases and resulted in further delays in being able to bring
Ussery to trial.
We conclude that the record supports the trial court’s findings of fact.
Regarding the weight to be given to this factor, we observe that the length of delay
can be “subdivided into justifiable and unjustifiable reasons” depending on the
circumstances of the case. Gonzales, 435 S.W.3d at 810. There is no evidence that
the State made any deliberate attempt to delay trial to hamper the defense.
Nevertheless, the State failed to offer any explanation why the case was not tried
between Ussery’s arrest in March 2015 and January 2017, which weighs against
the State. \See Balderas v. Stale, 517 S.W.3d 756, 768 (Tex. Crim. App. 2016) (“In
the absence of an assigned reason for the delay, a court may presume neither a
deliberate attempt on the part of the State to prejudice the defense nor a valid
reason for the delay.”); Gonzales, 435 S.W.3d at 809 (“A more neutral reason [for
delay] such as negligence or overcrowded courts should be weighted less heavily
[than deliberate delay] but nevertheless should be considered since the ultimate
responsibility for such circumstances must rest with the government rather than
with the defendant.”); see also Dickey v. Florida, 398 U.S. 30, 38 (1970)
(“Crowded dockets, the lack of judges or lawyers, and other factors no doubt make
some delays inevitable.”).

12

In contrast, the State did offer valid reasons for delay starting in January
2017. The newly elected presiding judge delayed the trial to allow time to
adequately prepare for difficult cases, such as Ussery’s felony charge of
aggravated sexual assault of a child under the age of six. See Gonzales, 435
S.W.3d at 810 (holding that “[ujnjustifiable reasons for delay count towards the
‘length of delay,’ while justifiable reasons for delay do not,” and indicating that
delay in complex cases may be justifiable in some circumstances); see also
Chapman v. Evans, 744 S.W.2d 133, 136 (Tex. Crim. App. 1988) (en banc)
(observing that constitutional right to speedy trial governs entire criminal justice
process, not just prosecutorial delays). Additional delays occurred following the
damage caused by Hurricane Harvey. See Wei, 447 S.W.3d at 554 (“A valid delay
should not weigh against the State at all.”). Accordingly, we agree with the trial
court that this factor weighs in favor of Ussery, albeit not as heavily.
3.

assertion of right

The accused has the responsibility to assert his right to a speedy trial. Cantu,
253 S.W.3d at 282 (noting that nature of speedy-trial right makes it impossible to
pinpoint precise time when right must be asserted, but “the burden of protecting
the right” does not fall “solely on defendants” because “[t]he defendant has no duty
to bring himself to trial; that is the State’s duty”). The Court of Criminal Appeals
explains:
13

Whether and how a defendant asserts this right is closely related to the
other three factors because the strength of his efforts will be shaped by
them. “The more serious the deprivation, the more likely a defendant
is to complain.” Therefore, the defendant's assertion of his speedy-trial
right (or his failure to assert it) is entitled to strong evidentiary weight
in determining whether the defendant is being deprived of the
right. . . . Repeated requests for a speedy trial weigh heavily in favor
of the defendant, while the failure to make such requests supports an
inference that the defendant does not really want a trial, he wants only
a dismissal.
Id. at 282-83. A speedy-trial demand should be unambiguous. Henson v. Slate, 407
S.W.3d 764, 769 (Tex. Crim. App. 2013).
The trial court found that Ussery submitted between eleven and thirteen pro
se motions demanding a speedy trial. The record supports this finding and
demonstrates that Ussery first made a speedy-trial request in May 2016 that was
noted in writing on the reset form signed by the court coordinator and filed with
the trial court. In addition to his pro se motions, Ussery filed a petition for writ of
mandamus seeking a ruling on his motions for a speedy trial,4 and he filed a letter
with the trial court asking that his motions be heard. Ussery’s trial counsel filed a
motion to dismiss for denial of a speedy trial on May 18, 2018, less than a month

See In re Ussery, No. 01-17-00477-CR, 1-17-00478-CR, & 01-17-00479-CR,
2017 WL 4820173, at *1 (Tex. App.—Houston [1st Dist.j Oct. 26, 2017, orig.
proceeding) (stating that Ussery sought mandamus relief ordering “the trial court
to stop the State’s delays and to go forward with trial, and to order the trial court to
release him on a pretrial personal recognizance bond,” and denying requested
relief on ground that “Ussery [had] not established his entitlement to relief because
he [did] not present[ | a record sufficient to show that he requested relief in the trial
court regarding delays and bail. The record does not establish that Ussery
submitted his requests to the trial court or when relief was requested.”).
14

before the case went to trial. Ussery’s counsel asserted at the hearing on the motion
to dismiss that he had adopted Ussery’s pro se motions in the months leading up to
trial in 2018, but the clerk’s record does not contain any written filing to that
effect. The trial court thus found that “whether the motions were adopted by
Defense counsel or not, . . . the number of motions filed by Mr. Ussery, his effort
to have the Court of Appeals even intervene, would certainly be evidence of his
assertion of his right to a speedy trial.”
The State argues, however, that “a reset form does not put the trial court on
notice that a defendant is claiming a constitutional right any more than it would
preserve an objection,” and it notes that the case reset forms were signed by the
court coordinator and not the trial judge. The State further argues that Ussery’s pro
se motions were not a timely invocation of his right to a speedy trial because
Ussery had appointed counsel and he was not entitled to hybrid representation. See
Robinson v. State, 240 S.W.3d 919, 922 (Tex. Crim. App. 2007) (holding that “a
defendant has no right to hybrid representation” and, “as a consequence, a trial
court is free to disregard any pro se motions presented by a defendant who is
represented by counsel”). The State also points to Otto’s testimony that, while he
was the prosecutor assigned to the case, Ussery’s counsel told the State repeatedly
that he did not intend to adopt the pro se motions, and, in fact, he did not do so
until May 2018, one month before trial, when counsel moved to dismiss the
15

indictment on speedy-trial grounds. See Cantu, 253 S.W.3d at 283 (“Filing for a
dismissal instead of a speedy trial will generally weaken a speedy-trial claim
because it shows a desire to have no trial instead of a speedy one.”).
We first observe that asserting the right to speedy trial does not necessarily
require filing a motion. Courts have recognized that the right to speedy trial can be
asserted in other ways. See id. (“Although one cannot file a motion for a speedy
trial until formal charges are made, the right to one can be asserted in other
ways.”); State a;. Flores, 951 S.W.2d 134, 142 (Tex. App.—Corpus Christi 1997,
no pet.) (“In this case, Flores and his sister inquired about his case several times,”
in the time leading up to Flores’s indictment, including making phone calls to
district attorney’s office, and their actions “indicate that Flores was interested in a
speedy resolution of his case, if in fact charges were going to be brought against
him”); cf. Dillingham v. United States, 423 U.S. 64, 65 (1975) (holding that
“invocation of the speedy trial provision . . . need not await indictment,
information, or other formal charge”). However, these are cases in which the
accused asserted a speedy-trial interest in the absence of an attorney of record.
The State is correct that a trial court may generally disregard pro se motions
presented by a defendant who is represented by counsel, as Ussery was. See
Robinson, 240 S.W.3d at 921-22. Several sister courts of appeals have declined to
consider motions for speedy trial filed by pro se defendants who were currently
16

represented by counsel. See Daniels v. State, No. 04-18-00474-CR, 2019 WL
1 139553, at *4 n.5 (Tex. App.—San Antonio Mar. 13, 2019) (mem. op., not
designated for publication); Reitz v. ,State, No. 06-18-00088-CR, 2019 WL 961515,
at *4-5 (Tex. App.—Texarkana Feb. 28, 2019, no pet.) (mem. op., not designated
for publication).
Moreover, a motion for speedy trial “must be ‘presented’ to the trial court to
preserve a complaint for appellate review, and presentment means more than mere
filing.” Guevara v. Stale, 985 S.W.2d 590, 592 (Tex. App.—Houston [14th Dist.]
1999, pet. refd); see Zamorano, 84 S.W.3d at 652 (quoting Cook v. State, 741
S.W.2d 928, 940 (Tex. Crim. App. 1987) (holding that “assertion-of-right factor
weighs against appellant where ‘there is no evidence beyond the two motions for
speedy trial filed with the district clerk that appellant asserted his right to a speedy
trial by requesting hearings to present evidence on the matter’”), vacated and
remanded on other grounds, 488 U.S. 807 (1988)). Ussery’s pro se motions were
never ruled on by the trial court. See Tex. R. App. P. 33.1. There is no indication
that the trial court was made aware of Ussery’s speedy-trial request until counsel
filed the motion to dismiss and set the case for a hearing in May 2018, which was
after the trial court had made several sua sponte resettings of the trial date.

We acknowledge that these unpublished cases have no precedential value, but
their similar facts make them instructive. See Roberson v. State, 420 S.W.3d 832,
837 (Tex. Crim. App. 2013).
17

In light of all of these facts, we agree with the trial court that Ussery’s pro se
motions constituted some effort to invoke his right to a speedy trial, but that
invocation was not unambiguous, see Henson, 407 S.W.3d at 769, because the pro
se motions were not required to be considered by the trial court and it is unclear if,
or when, those motions or other assertions of his right to speedy trial were
presented to the trial court. Ussery’s counsel decided not to adopt the pro se
motions for a speedy trial at the time Ussery filed them, and counsel affirmatively
represented to the State that he did not intend to adopt the pro se motions ./The
record is silent regarding why counsel postponed affirmatively asserting Ussery’s
right to a speedy trial. jsee^d. (“[Tjhe^deprivation of a speedy trial often can benefit

the

appellant.”).

Counsel

subsequently

filed

a

motion

to

dismiss

contemporaneously with adopting the pro se motions in May 2018, after the case
had been pending more than three years. Therefore, Ussery asserted his right to
speedy trial, but this factor does not weigh strongly against the State.
4.

prejudice to accused

“Because ‘pretrial delay is often both inevitable and wholly justifiable,’ the
fourth Barker factor examines whether and to what extent the delay has prejudiced
the defendant.” Cantu, 253 S.W.3d at 285 (quoting Doggett, 505 U.S. at 656). We
must analyze this factor “in light of the defendant’s interests that the speedy-trial
right was designed to protect: (1) to prevent oppressive pretrial incarceration, (2) to
18

minimize the accused’s anxiety and concern, and (3) to limit the possibility that the
accused’s defense will be impaired.” Id. The last form of prejudice “is the most
serious ‘because the inability of a defendant adequately to prepare his case skews
the fairness of the entire system.’” Id. (quoting Dragoo v. Stale, 96 S.W.3d 308,
316 (Tex. Crim. App. 2003)).
The defendant has the burden of showing prejudice but need not show actual
prejudice. Balderas, 517 S.W.3d at 772; Cantu, 253 S.W.3d at 280; see also
McKenzie, 491 S.W.2d at 123 (stating that “if an accused made a prima facie
showing of prejudice, the State ‘must carry the obligation of proving that the
accused suffered no serious prejudice beyond that which ensued from the ordinary
and inevitable delay’”).

Conclusory assertions are not sufficient to carry a

defendant’s burden to show that he was prejudiced by delay. Munoz, 991 S.W.2d at
829.
The trial court found that Ussery was not prejudiced by the delay and
weighed this factor in favor of the State. The trial court focused its findings on
whether Ussery’s defense will be impaired by the delay, and in particular on the
evidence of an extraneous offense that the State had originally intended to
introduce against Ussery. The extraneous offense involved Ussery’s conviction for
a similar crime against a family member that Ussery committed as a juvenile.
While Ussery’s case was pending, the State discovered that the complainant in the
19

extraneous offense had given some indication that she had recanted her accusation
against Ussery in the years since his conviction, and then it discovered that the J
complainant in the extraneous offense had died. In light of those facts, the State
then agreed not to use the extraneous-offense evidence against Ussery. The trial
court found that the prejudice factor weighed in favor of the State.
Ussery argues that the trial court erred in making its conclusion. He argues
that the delay was so excessive that it is presumed prejudicial. The Court of
Criminal Appeals, citing United States Supreme Court authority, has held, “In
certain instances, the length of delay may be so excessive that it ‘presumptively
compromises the reliability of a trial in ways that neither party can prove or
identify,”’ and that, “[i]n such instances, the defendant is absolved from the
requirement to demonstrate prejudice.” Gonzales, 435 S.W.3d at 813 (quoting
Shaw, 117 S.W.3d at 890, and citing Doggett, 505 U.S. at 655-65).
The Gonzales court examined several cases in which this principle was
applied. See id. In Doggett, there was an eight-and-a-half-year delay between the
accused’s indictment and arrest, and the Court “agreed with earlier courts that the
delay was solely attributable to the State’s negligence.” Id. (citing Doggett, 505
U.S. at 650-53). The Court of Criminal Appeals further discussed Doggett, stating:
When the Court examined the prejudice component of the Barker test,
it noted that “affirmative proof of particularized prejudice is not
essential to every speedy trial claim,” and that “negligence is not
automatically tolerable simply because the accused cannot
20

demonstrate exactly how it has prejudiced him.” And while conceding
that “time can tilt the case against either side,” the [Doggell] Court
concluded that “one cannot generally be sure which [party] it has
prejudiced more severely.” The Court also acknowledged that Doggett
“did indeed come up short” with respect to proving affirmative
prejudice, although it still held in his favor and granted relief.
Id. (internal citations to Doggett omitted).
The Court of Criminal Appeals further examined other federal cases
involving delays of more than five years in cases in which the delays were due
exclusively to the State’s negligence. Id. at 814; see United States v. Cardona, 302
F.3d 494, 498 (5th Cir. 2002) (five-year delay between indictment and arrest,
excessive delay was due to State’s negligence, court reasoned that because
prejudice caused by excessive delay compounds over time, a five-year delay was
sufficient to absolve appellant of his burden to prove prejudice); United States v.
Molina-Solorio, 577 F.3d 300, 304 (5th Cir. 2009) (presumed prejudice when
nearly ten years passed between indictment and trial, with accused spending eight
of those years in custody). The Court of Criminal Appeals then held that “the
State’s negligence in failing to pursue Appellant with diligence for six years”
•

resulted in presumed prejudice that the State had failed to rebut, and it concluded
that the appellant’s right to a speedy trial had been violated. Gonzales, 435 S.W.3d
at 814.
This case, however, is distinguishable from Gonzales and the cases it cites.
The total delay was three and a half years. And, as discussed above, approximately
21

half of that time was due to the new trial judge’s need to be fully prepared and the
damage caused by Hurricane Harvey. Therefore, the total delay to be counted
against the State is far less than the five, eight, or ten years in the cases cited in
Gonzales. See 435 S.W.3d at 813-14. But see Shaw, 117 S.W.3d at 889-90 (stating
that “we must presume the lengthy delay here did adversely affect appellant’s
ability to defend himself’ in case involving delay of just over three years);
Zamorano, 84 S.W.3d at 654 (stating that length of delay itself—just under three
years between arrest and speedy-trial hearing and almost four years between arrest
and plea hearing—supported inference of actual prejudice). Furthermore, although
Ussery was incarcerated for the majority of those three years, that is largely
because he repeatedly violated the terms of his bond. The record demonstrates that
while the aggravated assault case was pending, Ussery was charged with two
additional crimes—forgery and possession of a controlled substance—and that he
violated the terms of his bond by committing these new offenses and failing a drug
test. This case does not implicate the type of extraordinary delay discussed in
Doggett as giving rise to a presumption of prejudice. See Doggett, 505 U.S. at 658.
And even if the length of delay alone were sufficient to demonstrate
prejudice, we conclude that evidence supports the trial court’s affirmative finding
that Ussery was not prejudiced. Although excessive delay presumptively
compromises the reliability of a trial in ways that neither party can prove, such
22

presumptive prejudice cannot alone carry a Sixth Amendment claim without regard
to the other Barker criteria. See id. at 656. The State may demonstrate that any
delay was extenuated, as by the defendant’s acquiescence, or it may persuasively
rebut any presumption of prejudice. See id. at 658.
The State presented evidence, in the form of the testimony of Allen Otto and
the documents filed in the case, that, at least beginning in the summer of 2016, the
State attempted to work with Ussery’s counsel to bring the case to trial and ensure
that Ussery had the information necessary to defend himself. The record further
demonstrates that, although Ussery made pro se assertions of his speedy-trial right,
these assertions were not adopted by his trial counsel or presented to the trial court
until May 2018, less than a month before trial. ItJssery^argues that he_suf^red^ome~^\

I

actual prejucfi'c^becausehe might have been able to call the complainant from the
extraneous offense to testify on his behalf, but it is difficult to imagine how that
complainant’s testimony would have been helpful to Ussery, even if she had
recanted. We conclude, as the trial court did, that this factor weighs in favor of the
State.
5.

balancing the factors

Consideration of the “balancing test as a whole ... is a purely legal
question.” Cantu, 253 S.W.3d at 282. The accused’s burden of proof in showing
that he asserted the right and in showing prejudice “‘varies inversely’ with the
23

State’s degree of culpability for the delay,” and, thus, “the greater the State’s bad
faith or official negligence and the longer its actions delay a trial, the less a
defendant must show actual prejudice or prove diligence in asserting his right to a
speedy trial.” Id. at 280-81. And we must apply the balancing test “with common
sense and sensitivity to ensure that charges are dismissed only when the evidence
shows that a defendant’s actual and asserted interest in a speedy trial has been
infringed.” Id.
Looking at all the factors together, we conclude that although the delay of
three and a half years was excessive, the State bore a low degree of culpability for
the delay. See id. A portion of the delay was not explained by the State, but there
was no evidence of bad faith or intentional delay on its part, and a year and a half
. of the delay was due to reasons such as a change in the presiding judge of the court
and a natural disaster that caused widespread delays beyond the control of the
State. Regarding Ussery’s diligence in asserting his right, we observe that he did
uLe numerous assertions of his right. I/he record also demonstrates, however, that
those assertions were, to some degree, undermined by uncertainty as to whether
these assertions were ever presented to the trial court and by his counsel’s
representations that counsel did not intend to adopt the pro se motions for speedy
trial and by counsel’s failure to make any speedy_„trjal request before filing a j
motion to dismiss. Finally, the record does not indicate that Ussery suffered
24

“serious prejudice beyond that which ensued from the ordinary and inevitable
delay.” See Barker, 407 U.S. at 532; McKenzie, 492 S.W.2d at 123. .
Accordingly, we conclude that Ussery’s right to speedy trial was not
violated. We overrule his sole issue on appeal.
Conclusion
We affirm the judgment of the trial court.

Richard Hightower
Justice
Panel consists of Justices Kelly, Hightower, and Countiss.
Publish. Tex. R. App. P. 47.2(b).

25

OFFICIAL NOTICE FROM COURT OF CRIMINAL APPEALS OF TEXAS
POFB0XAI23D8SS'APJreOL STATION, AWft
CSlI.S POSTAGE » PITNEY BOWES
STATE OF TEXAS
PENALTY FOR
PRIVATE USE
jy
ZIP 78702
#§"»* JfenM 0000372116C*AR 25 2020

$®SS'.^7°

3/25/2020
pi
COA No. 01-18-00540-CR
USSERY, ROY EUGENE
Tfr0t'No^59846
PD-0011-20
On this day, the Appellant's Pro Se^pltijion #r discretionary review has been
refused.
<td SH
Deana Williamson, Clerk

3

ROY EUGENE USSERY
CLEMENTS UNIT - TDC # 2204802
9601 SPUR 591
AMARILLO, TX 79107-9606

I

BMI UHAB "70 i 07

.i
!

-MMn111

11 i** m1 Hi1’!!*
J

;

/{PP&ridrt d

Court of Appeals for the
First District of Texas at Houston
Memorandum Order
Appellate case name:

Roy Eugene Ussery v. The State of Texas

Appellate case number:

01 -18-00540-CR

Trial court case number: 1459846
338th District Court of Harris County

Trial court:

Appellant’s Motion for Rehearing En Banc is DENIED.
Judge’s signature:

/s/ Richard Hightower
Acting for the Court

The en banc court consists of Chief Justice Radack and Justices Keyes, Lloyd, Kelly, Goodman,
Hightower, and Countiss. Justice Landau did not participate.
Date:

April 7. 2020

OFFICIAL NOTICE FROM COURT OF CRIMINAL APPEALS OF TEXAS FILE COPY
P.O. BOX 12308, CAPITOL STATION, AUSTIN, TEXAS 78711

9_:
COA No. 01-18-00540-CR
PD-0011-20
USSERY, ROY EUGENE
The Appellant's pro se motion for extensiorudf time to file the appellant's motion for
rehearing is denied.
Deana Williamson, Clerk

6/24/2020

i

ROY EUGENE USSERY
CLEMENTS UNIT - TDC # 2204802
9601 SPUR 591
AMARILLO, TX 79107-9606

:
I
!

i

Arf>pe~d£"
Case NO 145984601010
Incident No./trn: 9170651miaooid
Pgs-2

The State of Texas

In The 338TH District

§
§
§
§
§
§
§

v.
USSERY, ROY EUGENE
State IDNo.:TX05692977

DISENT

Court

(999DIJDG

HarrisCounty, Texas

(999)

Judgment of Conviction by Jury
Judge Presiding:

•

Attorney for State:

Hon. BELINDA HILL

Date Judgment
Entered:

06/14/2018

MAEGAN WILLIAMS & AARON
CHAPMAN

Attorney for
Defendant:

CORNELIUS, R. P.

Offense for which Defendant Convicted:

SUPER AGG SEX ASSLT CHILD < 6
Charging Instrument:

Statute for Offense:

INDICTMENT

N/A

Date of Offense:

01/27/2008
Degree of Offense:

Plea to Offense:

1ST DEGREE FELONY

NOT GUILTY

Verdict of Jury:

Findings on Deadly Weapon:

GUILTY

N/A

Plea to 1 *' Enhancement Paragraph:
Findings on Is' Enhancement
Paragraph:

Plea to 21"1 Enhancement-Habitual Paragraph

N/A

N/A

Punished Assessed hv:

Findings on 2"J Enhancement Habitual
Paragraph:
N/A
Date Sentence Imposed:
Date Sentence to Commence:

JURY

06/15/2018

Punishment and Place of
Confinement:

N/A

06/15/2018

35 YEARS INSTITUTIONAL DIVISION, TDCJ
THIS SENTENCE SHALL RLN CONCURRENTLY.

QsKNTKNCKOE CONFINEMENT SUSPENDED. DEFENDANT PLACED ON COMMI'NITY SUPERVISION FORN/A .
Fine:

Court Costs.

Restitution:

SN/A

As Assessed

$ N/A

Restitution Payable to
□VICTIM (sec below) DaGENCY/AGENT (see below)
Sex Offender Registration Requirements apply to the Defendant. Tex Code Crim Proc chapter 62

CM

The age of the victim at the lime of the offense was 3 years.
If Defendant is to serve sentence in TI)CJ. entei mcarcciation periods m chronological order.

<4-

o
to
03

Cu

oc
rO
OC

o
oc
jo

E

3

z

o

E

3o

Q
-a
u

£

t2

<u

a

Time Credited:

From:

03/03/2015

to 03/12/2015

From:

to

From:

07/24/2015

to 08/23/2016

From:

to

From:

10/20/2016

to 06/15/2018

From

to

If Defendanljsjo serve sentence in county jail or is men credit toward line and costs, enter days credited below

N/A DAYS

NOTES: N/A

Ail pertinent Information, names and assessments indicated above are incorporated iato the language of the judgment below by reference.

This cause was called for trial in HarrisCounty, Teias. The State appeared be her District Attorney
Counsel / Waiver of Counsel (select one!
[X] Defendant appeared in person with Counsel.
O Defendant knowingly, intelligently, and voluntarily waived the right to representation bv counsel in writing in open court
It appeared to the Court that Defendant was mentally competent and had pleaded as shown above to the charging instrument. Both parties
announced ready tor trial. A jury was selected, impaneled, and swom. 1 he INDICT Mf.NT was read to the jure. and Defendant entered a plea to the
charged offense The Court received the plea and entered it of record
STATE’S
The jury heard the evidence submitted and argument of counsel. The Court charged the jury as to its duty to determine the gt
Defendant, and the jury retired to consider the evidence. Upon returning to open court, the jury delivered its verdict m the presence of i
EXHIBIT
defense counsel, if any.

I

F

The Court received the verdict and Ordered it entered upon the minutes of the Court
Punishment Assessed bv Jury / Court / No election (select onet
Injury. Defendant entered a plea and tiled a written election to have the jury assess punishment. The jury heard evidence relative to the question of
punishment. The Court charged the jury and it retired to consider the question of punishment. Atlcr due deliberation, the jury was brought into Court, and.
in open court, it returned its verdict as indicated above.
|—|court. Defendant elected to have the Court assess punishment. Alter hearing evidence relative to the question of punishment. the Court assessed
Defendant's punishment as indicated above.
□No Election. Defendant did not file a written election as to whether thejudgeor jury should
assess punishment Alter bearing evidence relative to Ihc
question of punishment, the Court assessed Defendant's punishment as indicated above
The Court Finds Defendant committed the above oftense and ORDERS, ADJUDGES AND DECREES that Defendant is GUILTY of the
above offense. The Court Finds the Presentence Investigation, it so ordered, was done according to ihc applicable provisions of 11 \ Com Crim Pkot
art. 42.12 §9.
The Court Orders Defendant punished as indicated above. The Court Orders Defendant to pay all fines, court costs and restitution as
indicated above.
Punishment Potions (select one*
□confinement in State Jail or Institutional Division. The Court ORDERSthc authorized agent of the State of Texas or the Sheriff of this Conntv to
take, safely convey, and dehver Defendant to the Director, Institutional Division, TDCJ The Court Orders Defendant to he confined for the period
and in the manner indicated above. The Court Orders Defendant remanded to the custody of the Sheriff of this countv until the Sheriff can obev the
directions of Ihissenlence. The Court Orders (hat upon release from confinement. Defendant proceed immediately lo the Harris County District
mrteitd5 hy^he Cm'irTahove ^
°RWRS Delendam 10 Pa>- or n,ake arrangements to pay. any remaining unpaid tines, court costs, and restitution as
□county Jail-Confinement / Confinement in Lieu of Payment. The Court Orders Defendant immediately committed to the custody of the
Sheriff of Hams County, Teias on the date the sentence is to commence. Defendant shall be confined in the HarrisCountv Jail for the penod
indicated above. The Court ORDERS that upon release from confinement. Defendant shall proceed immediately to Ihc Harris County District Clerk’s
bylhe C^T bo"5- ' ^ C°Ul1 ORDERS JJe,endant ,0 PaV- or make arrangements to pay. any remaining unpaid fines. court costs, and restitution as ordered
□Fine Only Payment. The punishment assessed against Defendant is for a fine o.ni.y. The Court Orders Defendant to proceed immediately to the
na n ^ H“rns County District Clerk. Once there, the Court Orders Defendant to pay or make arrangements to pav all fines and court costs as
ordered by the Court m this cause.
Execution / Suspension of Sentence (select mu4
□The Court ORDERS Defendant's sentence executed.
□ The Court Orders Defendant’s sentence of confinement suspended. The Court Orders Defendant placed on community supervision for the
adjudged penod (above) so long as Defendant abides by and does not violate the terms and conditions of continuum- super vision The order setting forth
the terms and conditions ol community supervision is incorporated into this judgment bv reference.
The Court Orders that Defendant is given credit noted above on this sentence for the time spent incarcerated.
I he Court Orders that Dctcndant is given credit noted above on this sentence for the time spent incarcerated. The Court further Orders that if the
defendant 's convicted of two or more oftcnscs in a single criminal action, that each cost or fee amount must he assessed using the highest category of

Furthermore, the following special findings or orders apply
NEGATIVE FINDINGS BY THE JURY AS TO THE SPECIAL ISSUES.

Signed and entered on 06/15/2018
l AA <-Q<\

fM

«g

Notice of Appeal Filed:

CM

Mandate Received:

o

(2

0

BELINDA HILL
JUDGE PRESIDING
J vpe of Mandate:

After Mandate Received. Sentence to Begin Date iv

i

$
°°
00

Jail Credit:
IJcfi Received on at (lAM Q PM
By:, Deputy ShcrilT of Harris County

jo
c
§

Clerk E FERNANDEZ
Case Number: 145984601010
Defendant:USSERY, ROY EUGENE
F.N/KR04:
I.CBT:

z
QJ

c
o

o
•g
E
t:
o

U

iSBEW
831!
I.Cffit:

F.N/KR18

Right Thumbprint

Additional material
from this filing is
available in the
Clerk's Office.

